    STATEMENT OF GREGORY H. FRIEDMAN
             INSPECTOR GENERAL
        U.S. DEPARTMENT OF ENERGY




                BEFORE THE
           UNITED STATES SENATE
COMMITTEE ON ENERGY AND NATURAL RESOURCES




                           FOR RELEASE ON DELIVERY
                           Thursday, June 17, 2004
Mr. Chairman and members of the Committee, I am pleased to be here today to respond to your

request to testify regarding recent allegations associated with occupational medical services and

tank farm vapor exposures at the Hanford Site. During the Cold War, the United States’ nuclear

weapons complex generated large amounts of hazardous and radioactive waste. The Department

of Energy is responsible for the cleanup of numerous contaminated sites and facilities that

supported nuclear weapons production activities. Associated with this is the need to protect the

safety and health of the Department’s workforce and the citizens in the communities surrounding

these cleanup sites. For several years, my office has identified environmental cleanup and

worker and community safety as significant challenges facing the Department.



In 2003, the Office of Inspector General initiated an audit addressing whether the Department’s

Computerized Accident/Incident Reporting System (CAIRS) contained accurate data. CAIRS is

used by the Department to track occupational injuries and illness data, and it provides

management with the ability to calculate workplace safety indicators. In addition, in conjunction

with this audit, we conducted a limited review of accident and injury records to determine

whether Hanford Site contractors had correctly classified 45 chemical vapor exposure incidents

that had been made public in September 2003. Further, in February 2004, at the request of the

Secretary of Energy, we initiated an investigation to address allegations of criminal misconduct

associated with occupational medical services provided to Department and contractor employees

at the Hanford Site.



Today, I will discuss the results of these reviews.




                                                 1
        Department’s Reporting of Occupational Injuries and Illnesses (DOE/IG-0648)



On May 21, 2004, the Office of Inspector General issued an audit report that addressed the

accuracy of data in CAIRS. The Hanford Site was among the sites included in the review. We

found that there were inaccuracies in CAIRS data for a number of contractors. We concluded

that this occurred because of weaknesses in the Department’s quality assurance process over

injury and illness reporting to CAIRS. Specifically, errors were not promptly corrected and there

was no standard procedure for the Department or its contractors to reconcile data.



With respect to the Hanford Site, we found that in 2002, Bechtel National Incorporated, the

contractor responsible for managing and operating the Waste Treatment and Immobilization Plant

at the Hanford Site, internally recorded 1,113 days of restricted work activity for its workforce

while CAIRS listed only 552 days, a discrepancy of 561 days. Similarly, in 2002, CH2M Hill

Hanford Group, Incorporated (CH2M Hill), the Department contractor that manages the tank farms

at Hanford, internally recorded 404 days away from work while CAIRS only listed 303, a

discrepancy of 101 days. In conducting our review, we noted that CH2M Hill had not performed

any reconciliation of its data in CAIRS with Occupational Safety and Health Administration

(OSHA) logs. In addition, CH2M Hill did not routinely review data contained in logs utilized for

workers' compensation purposes. In this regard, we identified eight workers’ compensation claims

that were not reported in CAIRS for the period January 1, 2000, to March 31, 2003.



During the audit, Department management advised us that efforts were underway to address

many of the data accuracy issues we identified. For example, shortly after a draft of our audit




                                                 2
report was issued, the Department published the Environment, Safety and Health Reporting

Manual, which required electronic reporting of data to CAIRS, strengthened verification

procedures, and clarified roles and responsibilities.



Our report recommendations included that the Department revise its policy to improve the

accuracy and usefulness of data in CAIRS by requiring quarterly reconciliation of the various

sources of contractor data with CAIRS.



Management generally concurred with our recommendations, but advised us that it believed the

report overstated the implications of CAIRS data errors. In our opinion, data quality problems

such as those observed during our audit had the potential to affect the accuracy of occupational

injury and illness indicators. These indicators provide the Department with the ability to assess

the complex-wide effectiveness of its safety programs and to modify procedures to resolve

recurring occupational injury and illness issues.



          Review of Selected Issues Pertaining to Vapor Inhalation Allegations at the

                                   Hanford Site (OAS-L-04-14)



As part of our audit of CAIRS, we conducted a limited review of accident and injury records to

determine whether Hanford contractors had correctly classified 45 chemical vapor exposure

incidents that had been made public in September 2003. Our review involved the examination of

data drawn from employee records and contractor-maintained occupational injury and illness

files. We concluded that Hanford contractors had, for the most part, correctly classified the




                                                    3
chemical vapor exposure cases. Of the 45 items examined:



   •   Thirty-five cases appeared to have been appropriately classified;

   •   Two exposures were incorrectly classified as non-recordable;

   •   Four cases were not discrete incidents and duplicated other cases; therefore, they were

       excluded from the universe of cases we reviewed; and

   •   Four purported exposures could not be appropriately evaluated because we were unable

       to obtain sufficient information as to their existence and/or nature.



To determine if the cases were correctly classified, we used rules promulgated by OSHA. The

OSHA definition of "recordable" incidents includes work-related injuries and illnesses that result

in medical treatment beyond first aid, days away from work, restricted work activity, job

transfer, loss of consciousness, cancer, chronic irreversible disease, or death. Recordable injuries

and illness are required to be logged onto a Log of Work-Related Injuries and Illnesses (Form

300) – also known as OSHA 300 logs.



       Investigation of Allegations Involving Occupational Medical Services and Tank

                    Farm Vapor Exposures at the Hanford Site (I04RL003)



In February 2004, in response to a request from the Secretary of Energy, we initiated an

investigation of specific allegations of criminal misconduct associated with occupational medical




                                                 4
services provided to Department and contractor employees at the Hanford Site. There were three

primary allegations:



   •   Alteration and destruction of medical records by the Hanford Environmental Health

       Foundation (the Foundation), the Department contractor that provided occupational

       medicine and industrial hygiene services to about 11,000 contractor and Federal workers

       on the Hanford Site;

   •   False injury reporting by Hanford contractors; and

   •   Cover-up of ammonia vapor readings at the tank farms by contractor employees.



This was a criminal investigation of specific alleged events and activities. Thus, we did not

focus on general concerns with mismanagement, the technical aspects of tank vapor monitoring

activities, whether medical services met professional standards, or the merit of individual

worker’s compensation claims. It was our understanding that these topics were included, either

directly or indirectly, in other concurrent reviews involving the Hanford Site. In this regard,

during the course of our investigation, we furnished relevant information regarding potential

administrative or operational irregularities at Hanford to other offices performing programmatic

reviews of these subjects.



As part of our investigation, we conducted extensive interviews of over 70 current and former

Department Federal and contractor employees at Hanford and obtained and analyzed volumes of

documents. We also retained the services of an independent medical and OSHA regulations

specialist to review medical files and safety records. During our investigation, we coordinated




                                                 5
with the United States Attorney’s Office for the Eastern District of Washington. At the

conclusion of our fieldwork, we provided details of our investigative findings to the United

States Attorney, the Chief of the Criminal Division, and an Assistant United States Attorney.

The United States Attorney’s Office declined to pursue criminal prosecution in this matter. The

following are the results of our investigation:



Alleged inappropriate changes to patients’ medical files by Foundation personnel



It was alleged that changes were made to patients’ medical files by Foundation personnel that

resulted in the misrepresentation of the nature, cause, extent, and/or severity of injuries or illnesses.

Individuals believed that the changes were often prompted by pressure placed on Foundation

physicians by contractor safety representatives. It was also alleged that the Foundation recently

shredded documents, presumably to destroy evidence of wrongdoing.



The facts developed during the investigation did not substantiate criminal misconduct with

regard to the alteration and destruction allegations. Further, the independent medical and OSHA

specialist we retained reviewed a sample of files relating to worker injuries and illnesses at the

Hanford Site, including patient medical files, contractor safety files, and related documentation.

The sample was drawn from a universe of cases identified—primarily by witnesses we

interviewed—as potentially having improper alterations, documents removed, or issues relating

to recordability. The specialist reported that: (1) the Foundation medical files were detailed,

well-organized, and consistent with standard medical practices; (2) changes and modifications to

documents and/or entries in medical files appeared to be reasonable and proper; and (3) no

improper alteration, destruction, and/or manipulation of records was identified.


                                                    6
Alleged false injury reporting by Hanford contractors



It was alleged that there was an ongoing conspiracy between the Hanford Site contractors’ safety

representatives and Foundation management to avoid creating and documenting recordable

injuries. Witnesses provided examples in which contractors allegedly required injured workers

who should have stayed home to report to work but perform no duties. We also examined

aspects of contractor input of data into CAIRS.



The facts developed during the investigation did not substantiate criminal misconduct with

regard to injury or illness reporting. However, the investigation did verify a single instance in

1999 where a former Hanford Site subcontractor encouraged an injured employee to report to

work following a work-related injury, yet the subcontractor had the employee perform no duties

for five days. The employee remained on restricted duty for another 24 days. The subcontractor

did not conceal the nature or cause of the injury itself, and it was documented as “recordable.”

The subcontractor’s actions were, nonetheless, troubling.



Alleged cover-up of ammonia vapor readings at the tank farms by contractor employees



It was alleged that employees of CH2M Hill had taken steps to cover up excessively high vapor

exposure readings at the tank farms. High exposure readings allegedly were either

misrepresented or not documented. Our investigation focused on the two specific vapor

exposure incidents provided as examples by witnesses.




                                                  7
The facts developed during the investigation did not substantiate criminal misconduct relating to

alleged cover-up of vapor readings. With respect to the first incident, we identified conflicting

testimony among various witnesses. We were unable to reconcile the differences through other

witnesses or available documentation, and no independent corroborating evidence was found to

support either version of events with certainty. With respect to the second incident, two

witnesses initially identified to us as having valuable information did not provide such

corroborating information.



Other alleged potential violations of law



It was also alleged that: (1) the Foundation artificially inflated results in an annual performance

self-assessment report; (2) a Department supervisor improperly removed relevant information

from a report that was critical of a contractor’s occupational injury and illness reporting and

recordkeeping program; (3) the Foundation improperly maintained two sets of medical records;

and (4) there was a conspiracy to develop an intentionally vague “Record of Visit,” a form that is

used by the Foundation to record assorted information about a patient’s visit, in order to facilitate

the underreporting of injuries and illnesses.



The facts developed during the investigation did not substantiate criminal misconduct with

regard to these allegations. However, we received conflicting testimony from various witnesses

with respect to the annual self-assessment allegation, and we were unable to reconcile these




                                                 8
differences through other witnesses or available documentation. No facts were developed to

support the other allegations in this area.



Although criminal allegations were the focus of our investigation, we observed several worker

health and safety protocols that we believed needed to be addressed by Federal managers at the

Hanford Site. Specifically, we believed action was needed to ensure that:



   •   Industrial Hygiene Technicians take vapor exposure readings in a timely manner

       following reported exposure incidents at the tank farms and document exposure readings

       in appropriate reports. During an examination of the vapor exposure cover-up allegation,

       we determined that a Technician failed to record vapor monitoring data on a “Direct

       Reading Instrument” survey form, as required by the contractor’s tank farm monitoring

       policies and procedures. The reading was recorded instead in a log book. Additionally,

       the vapor reading was not taken until approximately two hours after the exposure was

       reported.

   •   Site employees on work restriction are assigned meaningful duties. As noted previously,

       we identified a troubling instance in 1999 where a former Hanford Site subcontractor

       encouraged an injured worker to show up at the job site but perform no duties, rather than

       remain at home. Despite the placement of work restrictions on this employee and

       documenting the injury as “recordable,” the subcontractor’s actions raise questions about

       its practices.

   •   Patient care is not inappropriately influenced by whether the care will make an injury or

       illness “recordable.” We identified internal Foundation e-mails that some recipients




                                                9
       interpreted as encouraging physicians to emphasize recordability of injuries over patient

       standard of care. We received no confirmation that care was, in fact, improperly

       compromised. However, unclear communications such as these appear to have led to

       concerns over the provision of patient care.

   •   Work restrictions following injuries and illnesses are identified and applied in a timely

       manner. We identified a particular worker who was not given an immediate work

       restriction following a diagnosis for beryllium sensitivity, in accordance with standard

       medical practice.



As noted previously, we interviewed over 70 individuals with knowledge of relevant operations

at the Hanford Site. During this process, it became clear that, despite major health and safety

efforts by the Department, a significant number of individuals interviewed had unresolved

concerns about the safety of the work at Hanford, the potential for health problems as a result of

this work, and the quality of occupational health care provided to Hanford employees. Given the

challenges at Hanford, where the acknowledged risks to the workforce are significant, some level

of concern would be understandable even if the Department’s occupational health program

worked perfectly. However, the number, scope, and continuing nature of the employee and

citizen concerns we heard during our investigation suggest that management needs to intensify

its efforts to improve employee confidence in the occupational health and safety program at

Hanford. One example of an action we believe would be beneficial is evaluating current

mechanisms for receiving, analyzing, and addressing employee complaints about occupational

medical services. A more effective and robust program for dealing with employee concerns has

the prospect of building employee and public confidence in worker safety at the Hanford Site.




                                                10
                                         CONCLUSION



The Office of Inspector General has provided its findings and conclusions with respect to these

three reviews to the Department for immediate action, as well as for consideration in its overall

assessment regarding the serious issues that have been raised regarding worker safety and health

at the Hanford Site.



Mr. Chairman and members of the Committee, this concludes my statement. I will be pleased to

answer any questions.




                                                11
